February 2, 2010

VINCENT H. DEVITO JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Postal Service Officers’ Travel and Representation
         Expenses for Fiscal Year 2009 (Report Number FT-AR-10-007)

This report presents the results of our audit of the U.S. Postal Service officers’ travel
and representation expenses for fiscal year (FY) 2009 (Project Number
09BG002FT000). We conducted the audit in response to the Board of Governors’
policies and procedures requiring annual audits of officers’ travel and representation
expenses.1 Our audit objective was to determine whether travel and representation
expenses claimed by Postal Service officers were properly supported and complied with
Postal Service policies and procedures.2 This audit addresses financial risk. See
Appendix A for additional information about this audit.

Conclusion

Officers’ travel and representation expenses totaling approximately $567,000 were
supported. From 706 total travel reimbursements, we reviewed a sample of 135
reimbursements, totaling $173,626, and found support for expenses claimed.3 We also
noted the Postal Service has significantly reduced these expenses, from a high of
approximately $1.3 million in FY 2005.

During FY 2009, the Postal Service made changes to the guidelines for officers’ travel
and representation expenses, and conducted training on these changes. A
memorandum from the Postmaster General (PMG) dated April 13, 2009, notified
officers that management revised the Postal Service Officers’ Travel and
Representation Expense Guidelines4 (Guidelines) and included a copy. In addition,
management provided training on the revised Guidelines to the officers’ secretaries on
March 31, May 29, and June 17, 2009. Further, Postal Service Corporate Accounting


1
  Representation expenses nearly always involve one or more non-Postal Service employee (suppliers, customers,
and foreign postal administrators) and a Postal Service officer. In addition, they include officers’ expenses when local
employees participate in official business meetings with officers in travel status and the local employees are not
reimbursed for these costs.
2
  We limited the audit universe to reimbursements processed through the eTravel System.
3
  The 135 travel reimbursements reviewed included 124 from a random sample and 11 from a census stratum.
4
  Issued on September 13, 2006, and revised April 13, 2009.
Postal Service Officers’ Travel and Representation                       FT-AR-10-007
 Expenses for Fiscal Year 2009


personnel provided one-on-one training on an ongoing basis to newly appointed
secretaries, clarified the Guidelines for them, and corrected travel issues identified
during compliance reviews.

However, officers did not always comply with Guidelines when claiming expenses
incurred during official travel and for representation. Although the instances were
relatively minor, we will continue to monitor compliance with guidelines in future audits.

Travel and Representation Expense Reimbursement Deviations

Officers did not always conduct their travel or request reimbursements in accordance
with Postal Service Guidelines. Specifically, we reviewed 135 of the 706
reimbursements and found:

          On five separate occasions, officers did not use the government travel card for
           hotel or representation expenses.

          On eight separate occasions, officers did not submit claims for travel and
           representation reimbursement in a timely manner.

This occurred because officers inadvertently used their personal credit cards, did not
carry their government travel cards, or were unfamiliar with Guideline requirements.

When employees do not follow guidance, the Postal Service is at increased risk that
errors or omissions may occur without detection. Furthermore, employees could
improperly accrue personal benefits and rewards or conceal details of unauthorized
purchases. See Appendix B for our detailed analysis of this topic.

Because these issues were not material and management conducted training during FY
2009, we are not making a recommendation at this time. However, we will continue to
monitor this area as part of our ongoing financial statement audit work.

Observations

Approval Letters for International Trips

Approval letters for two international trips were not attached to the expense reports due
to an oversight by Corporate Accounting personnel to attach the letters that were on file.
Handbook F-155 states that a copy of the approval for international travel must be
attached to expense reports. When we discussed this issue with accounting personnel,
they attached the letters to the expense reports.


5
    Travel and Relocation, Section 4-1.3.1, dated February 2004.




                                                           2
Postal Service Officers’ Travel and Representation                                     FT-AR-10-007
 Expenses for Fiscal Year 2009



Exclusive Use of Government Travel Card

We observed an inconsistency between the cover letter of the April 13, 2009, revised
Guidelines, and the Guidelines themselves regarding mandatory use of the individually
billed government-issued travel card. The cover letter states, “The GSA SmartPay 2
Travel Charge Card is to be used for all travel expenditures.”6 The Guidelines state “All
charges for airline tickets, railroad travel, hotels, and rental cars must be paid for using
the officer’s government-issued travel card. All other expenses that are chargeable
should be on the officer’s government-issued travel card (unless an emergency).”

We found some officers were using their cards for all expenses, while others were not.
In a prior audit report,7 we recommended the Postal Service require employees to use
the government-issued travel card for paying all customary travel expenses and
representation expenses. We defined “customary” travel expenses as those related to
common carrier transportation, hotel, and car rental. We continue to believe requiring
the government-issued travel card be used for all customary travel expenses is
reasonable, but requiring the card to be used for all expenses may be difficult to
achieve. We discussed the issue with management on December 22, 2009, and they
stated their intent is to enforce the Guidelines themselves, not what is stated in the
cover letter. The Postal Service should consider revising the cover letter and
communicating to all officers the Guidelines requirements to resolve the inconsistency
and reduce future discrepancies.

These observations were not material to the overall officers’ travel and representation
expenses and did not affect the overall adequacy of internal controls. We offer this
information to assist with the management and control of these expenditures.

Progress on Prior Year Observation

Our audit report titled Postal Service Officers’ Travel and Representation Expenses for
Fiscal Year 2008 (Report Number FT-AR-09-006, dated January 20, 2009) identified
opportunities to strengthen internal controls.

We observed that employees incorrectly categorized expenses for seven travel
reimbursements in the eTravel system. After we discussed this issue with
management, they provided a list of expense classifications to the officers and area vice
presidents’ secretaries and emphasized the importance of correctly categorizing
expenses. We continued monitoring this issue as part of our ongoing oversight of
officers’ travel and representation expenses and observed that management diligently


6
    GSA is the General Services Administration.
7
    Postal Service Officers Travel Expense Guidelines (Report Number FT-WP-06-001, dated September 29, 2006).




                                                        3
Postal Service Officers’ Travel and Representation                 FT-AR-10-007
 Expenses for Fiscal Year 2009


reviewed expense reports and sent them back for correction when expenses were
incorrectly categorized. We did not identify any travel reimbursements incorrectly
categorized in the eTravel system during our audit. Accordingly, we consider this
observation closed.

We are not making any recommendations in this report. As a result, management
chose not to respond formally to this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

cc:     Joseph Corbett
        Julie S. Moore
        Stephen J. Nickerson
        Steven R. Phelps
        Sally K. Haring




                                                     4
Postal Service Officers’ Travel and Representation                                    FT-AR-10-007
 Expenses for Fiscal Year 2009


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. As part of these audits, the Board of Governors
adopted policies and procedures that require annual audits of officers’ travel and
representation expenses.

Postal Service officers shape the strategic direction of the Postal Service by setting
goals, targets, and indicators within the framework established by the Postal Service’s
Board of Governors. Their positions are classified as Postal Career Executive Service II
and include the PMG, deputy PMG, and all vice presidents. The Board of Governors
has authorized 50 Postal Service officer positions.

Postal Service officers are reimbursed for actual expenses incurred on official travel.
They are also reimbursed for representation expenses incurred with customer, industry,
or employee groups with whom the Postal Service conducts official business. Postal
Service policy requires officers to claim reimbursement for all travel and representation
expenses through the eTravel system.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine whether travel and representation expenses
claimed by Postal Service officers were properly supported and complied with Postal
Service policies and procedures. In support of this objective, we applied a statistical
methodology to divide the universe of 706 officer travel reimbursements into four strata,
one stratum for each quarter of the fiscal year. For each stratum, we took a simple
random sample of 30 travel reimbursements. In addition to this sample, we created a
census stratum8 to ensure every officer was sampled at least once and all travel
reimbursements $7,000 and over were selected. The universe included
reimbursements in eTravel from October 1, 2008, through September 30, 2009. In
addition, we reviewed at least one reimbursement for each officer not selected in the
original random sample. We conducted fieldwork from January through October 2009.

We used the following as our criteria in evaluating reported expenses:
       Postal Service Guidelines the PMG issued on September 13, 2006, and revised
        on April 13, 2009.




8
 Census is a stratum in which every population member is measured or evaluated. There is no sampling from a
census stratum.




                                                       5
Postal Service Officers’ Travel and Representation                                     FT-AR-10-007
 Expenses for Fiscal Year 2009


       Handbook F-15, dated February 2004, updated with Postal Bulletin revisions
        through December 20, 2007.
       Various management instructions.9

We conducted this audit from December 2008 through January 2010 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We limited our tests of controls to those
necessary to achieve our audit objective. Our procedures were not designed to provide
assurance on internal controls. Consequently, we do not provide an opinion on such
controls. Also, our audit does not provide absolute assurance of the absence of fraud
or illegal acts due to the nature of evidence and the characteristics of such activities.
We discussed our conclusions and observations with management officials on
December 22, 2009.

We relied on computer-generated data from the Accounting Data Mart (ADM) and
eTravel systems. We performed specific internal control and transaction tests on these
systems’ data to include tracing selected information to supporting source records. For
example, we traced all hard copy travel reimbursements through the eTravel and ADM
systems.

PRIOR AUDIT COVERAGE

                                     Report              Final
         Report Title               Number            Report Date                  Report Results
  Postal Service Officers’        FT-AR-09-006        01/20/2009        See Progress On Prior Year
  Travel and Representation                                             Observations in the body of the
  Expenses for Fiscal Year                                              report for information.
  2008
  Postal Service Officers’        FT-AR-08-004         12/20/2007      Based on the sample results, travel
  Travel and Representation                                            and representation expenses
  Expenses for Fiscal Year                                             totaling approximately $880,000
  2007                                                                 incurred by officers for the year
                                                                       ended September 30, 2007, were
                                                                       properly supported and complied
                                                                       with Postal Service policies and
                                                                       procedures. We made no
                                                                       recommendations.



9
  Management Instructions include (1) FM-640-2004-1, Government Issued, Individually Billed Travel Charge Cards,
dated June 1, 2004; (2) FM-640-2008-1, Expenses for Internal and External Events, dated September 10, 2008; and
(3) FM-640-1999-3, Travel Expense Charges for Meetings, dated April 9, 1999.




                                                        6
Postal Service Officers’ Travel and Representation                             FT-AR-10-007
 Expenses for Fiscal Year 2009


  Postal Service Officers’       FT-AR-07-005        12/7/2006   Based on the sample results, travel
  Travel and Representation                                      and representation expenses
  Expenses for Fiscal Year                                       totaling approximately $1 million
  2006                                                           incurred by officers for the year
                                                                 ended September 30, 2006, were
                                                                 properly supported and complied
                                                                 with Postal Service policies and
                                                                 procedures. We made no
                                                                 recommendations.




                                                     7
Postal Service Officers’ Travel and Representation                                         FT-AR-10-007
 Expenses for Fiscal Year 2009


                                 APPENDIX B: DETAILED ANALYSIS

Based on the sample and census results, officers’ travel and representation expenses
totaling approximately $567,000 were generally supported. However, officers did not
always comply with Postal Service Guidelines when claiming expenses incurred during
official travel and for representation.

Use of Government Travel Card

Officers did not always use their government travel cards for hotel, representation, and
officer expenses.10 Specifically, we reviewed 135 of the total 706 reimbursements and
found:

        One officer did not use the government travel card for hotel expenses.

        On four separate occasions, officers did not use their government travel cards for
         representation expenses.11

This occurred because officers inadvertently used their personal credit cards, did not
carry their government travel cards, or were unfamiliar with the Guidelines.12 Those
Guidelines require officers to use their government travel cards for all airline tickets,
railroad travel, hotels, and rental car expenditures as well as representation expenses.

When employees do not use their government travel cards for customary expenses
such as transportation, hotel, and rental cars, the Postal Service is at increased risk that
errors or omissions will occur without detection. In addition, employees could
improperly accrue personal benefits and rewards or conceal details of unauthorized
purchases.

Submission of Travel Reimbursements

Officers did not submit eight out of 135 travel reimbursement requests in a timely
manner. According to the Guidelines,13 officers must submit claims for reimbursements



10
   Guidelines, dated September 13, 2006, page 3, Reimbursable Items, and revised Guidelines, dated April 13, 2009,
page 1.
11
   Two representation expenses for $42.75 and $78.50 were for business meals held to discuss information
technology, knowledge management, and other business options with non-Postal Service guests. Another
representation expense for $44 was for a business meal held to conduct an external recruitment interview. Finally, a
representation expense for $142.10 was for an officer in travel status that conducted an official business meeting with
Postal Service employees.
12
   One officer was new to the Postal Service in FY 2009.
13
   Guidelines, dated September 13, 2006, page 2, Approval of Travel Vouchers; and revised Guidelines, dated
April 13, 2009, pages 2 and 6.




                                                           8
Postal Service Officers’ Travel and Representation                          FT-AR-10-007
 Expenses for Fiscal Year 2009


within 1 month of the event or activity for which reimbursement is sought. The travel
reimbursements were not timely for several reasons:

       One secretary inadvertently overlooked an expense report.
       One secretary was on leave and submitted the expense report when she
        returned.
       Relocation of one officer caused his two expense reports to be late.
       One secretary was waiting for a response from the hotel for refund of an
        overcharge.
       One officer inadvertently misplaced the expense receipts and submitted the
        expense report when he located them.
       One secretary was waiting for car rental information to complete the expense
        report.
       One officer was not aware expense reports must be submitted within 1 month of
        travel.

The table below summarizes the eight reimbursement requests that officers did not
submit in a timely manner.

          Number         Trip Ending Date            Submission Date        Days Late
            1           November 19, 2008             March 3, 2009            74
              2          November 5, 2008                February 4, 2009      61
              3            June 24, 2009             September 17, 2009        55
              4         September 19, 2008           November 20, 2008         32
              5            April 15, 2009                 June 11, 2009        27
              6             May 4, 2009                   June 24, 2009        20
              7          February 26, 2009                 April 2, 2009        7
              8           January 7, 2009                February 9, 2009       2

When employees do not submit reimbursements timely, there is increased risk the
Postal Service’s monthly financial reports will not accurately reflect period expenses.




                                                     9
